,                                                        NATIONAL SCIENCE FOUNDATION
I
                                                          OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

     Case Number: A-05110080                                                                          Page 1 o f 1




              We received allegations of intellectual theft from the complainant.' He alleged one of his ideas
              (the first idea) was presented in a research press release (the article)' without crediting him. He
              claimed this idea was part of work performed under his NSF award.) The credit for this first idea
              was given to the subject4 in the article, not the complainant. He also alleged another idea (the
              second idea) was taken by other groups5 without crediting him. The complainant claimed the
              second idea was developed Erom his NSF award.

              We noted that the complainant's first idea was presented about a year after his NSF award closed
              in two separate, but identical publications.6 The subject was the primary author on both while the
              complainant was a co-author. Further, a review of the NSF award showed that the complainant
              had worked with the subject under the award. Finally, the article was not authored by the
              subject, but was prepared by a public relations office. As a co-author on the publications that
              presented and discussed the first idea, the subject could continue developing the idea without the
              complainant. There is no substance to the allegation that the subject stole the complainant's first
              idea.

              Our review of the complainant's NSF award, including the Final Report, showed that there was no
              mention or discussion of the second idea. In fact, the Final Report discussed only the first idea as the
              product of the award. There was no evidence that NSF has jurisdiction over the alleged theft of the
              complainant's second idea.
              This case is closed and no further action will be taken.




              author.




    NSF 01G Fonn 2 (1 1/02)
